No. 20-190
In The
Supreme Court of the United States

DANIEL SOHN AND JULIET SOHN,
Petitioners,
V.
COUNTY OF MARIPOSA, etc., et al.,
Respondents.

PROOF OF SERVICE
I am employed in the State of California,
County of Sacramento. I am over the age of
eighteen and not a party to this action. My
business address is 2100 21st Street, Ste. A,
Sacramento, CA 95818.
I declare on October 19, 2020, I served,
through the Federal Express, in postage pre-paid
envelopes with a postmark, three copies of the
document entitled: OPPOSITION TO
PETITIONERS’ PETITION FOR WRIT OF
CERTIORARI on all parties required to be
served, as follows:

Janice R. Mazur
MAZUR & MAZUR
13465 Camino Canada, Suite 106, No. 103
El Cajon, CA 92021
Phone: 800-383-5002
Fax: 888-550-1240
Email: appealslawyer@aol.com
Attorneys for Appellants Daniel Sohn and Juliet
Sohn
Kimberly G. Flores
BERLINER COHEN, LLP
2844 Park Avenue
Merced, CA 95348-3375
Phone: (209) 385-0700
Fax: (209) 385-3789
Email: kim.flores@berliner.com
Attorneys for Private Party Owner Defendants
Dana Hall, Michele Minniear, Fred and Muriel
Temps, Roger and Laurel Siebecker, Tom and
Carol Schmidt
David A. Roberts
LANG, RICHERT & PATCH
5200 North Palm Avenue, Suite 401
Fresno, CA 93704
Phone: 559-228-6700
Fax: 559-228-6727
Email: dar@lrplaw.net
Trial Counsel for Appellants
Daniel Sohn and Juliet Sohn

On the same day, an electronic version
of the same document was submitted to the
same interested parties as follows:
Janice R. Mazur
appealslawyer@aol.com
Kimberly G. Flores
Kim.flores@berliner.com
David Roberts
dar@lrplaw.com
Oliver W. Wanger (co-counsel)
owanger@wjhattorneys.com
Jena M. Harlos (co-counsel)
jharlos@wjhattorneys.com
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 19, 2020
/s/ Glen C. Hansen
Glen C. Hansen
Counsel of Record
Abbott & Kindermann, Inc. Counsel for
Respondents

3

